JUDD E. STONE II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

June 17, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Robert Gene Will, II v. Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division, No. 20-1669

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4, Respondent Bobby Lumpkin,
Director, Texas Department of Criminal Justice, Correctional Institutions Division,
respectfully moves for an extension of the time for filing his response to the petition
for a writ of certiorari in this matter.
Petitioner filed his petition for a writ of certiorari on May 27, 2021. It was
docketed on June 1, creating a deadline for Respondent’s brief in response of July 1,
2021. Respondent requests a 30-day extension of that deadline, creating a new filing
date of August 2, 2021. 1 My office conferred with lead counsel for Petitioner on June
15; Petitioner does not oppose the requested extension.
The extension is necessary because lead counsel for Respondent has had
numerous briefing and argument obligations since Petitioner filed his petition for
certiorari on May 27. Lead counsel’s obligations include:
• Oral argument in Daves v. Dallas County, No. 18-11368, before the en banc
Fifth Circuit on May 26;
1

Thirty days from July 1 is July 31, which is a Saturday; thus, the operative deadline would
be Monday, August 2.
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 2
• Filing an amicus brief in Diocese of Albany v. Lacewell, No. 20-1501, in this
Court on June 3;
• Filing a reply in support of motion to intervene in Mayorkas v. Innovation Law
Lab, No. 19-1212, in this Court on June 15;
• Oral argument in Ex parte Stephens, No. PD-1033-20, before the Texas Court
of Criminal Appeals on June 16.
For the foregoing reasons, Respondent respectfully requests a 30-day extension
of the deadline to file his response to the petition for a writ of certiorari, creating a
new deadline of August 2, 2021.
Respectfully submitted.
/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Counsel of Record
cc: Charles R. Flores (via e-mail)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

